PROOF OF SERVICE
I, Roger Liverman, do swear or declare that on this date, served the
enclosed:
• Motion for Leave to File a Petition for En banc Rehearing of
Petitioners Writ of Mandamus Pursuant to U.S. Supreme Court
Rule 44 Rehearing
• Petition for En banc Rehearing of Petitioners Writ of Mandamus
Pursuant to U.S. Supreme Court Rule 44 Rehearing
on each party to the above proceeding or that parties counsel, and on
every other persons required to be served by depositing an envelope
containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3
calendar days. The name and addresses o_£ those served are as follows:

Fifth Circuit Court of Appeals
Fifth Circuit Appellate Judge Smith
Fifth Circuit Appellate Judge Costa
Fifth Circuit Appellate Judge Ho

Lyle W. Cayce, Clerk
Melissa V Mattingly, Deputy Clerk
Laney L Lampard, Deputy Clerk

Case No: 19-51053
1

Mailing Address:

Fifth Circuit Court of Appeals
Office of the Clerk
600 S Maestri PI, Suite 115
New Orleans, LA 70130

Mailing Address:

Solicitor General of the United States
Room 5616 Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

Respondents:

Denton County, Texas

Paul Johnson individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Lara Tomlin individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Rick Daniel individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney,
Lindsey Sheguit individually “employee” of Denton County,
Texas, Denton County Criminal District Attorney,
Matthew Shovlin, individually “employee” of Denton County,
Texas, Denton County Criminal District Attorney.
Rex George, individually “employee” of Denton County, Office of
Criminal District Attorney
Larry Don Kish, individually “employee” of Denton County,
Sheriff s Office Investigator.

Counsel for Respondents:
Robert J Davis, State Bar No.
05543500, Matthews, Shiels, Knott, Eden, Davis & Beanland,
LLP, 8131 LBJ Freeway, Suite 700, Dallas, Texas 75251, Office
Tel. 972-234-3400
Respondents: Judge Pete “Pedro” Gomez, Jr (individually)
Counsel for Respondents:

Scot M. Graydon,

Assistant Attorney General P O Box 12548 Capitol Station
Austin, TX 78711-2548 (512) 463-2120 Fax: (512) 320-0667
Email: scot.graydon@oag.texas.gov
Respondents:
Ronald Pettigrew (individually)
Ranger * Default Never served Plaintiff with Answer*

Texas

Note: In a filing Attorney Jason Bramow, Assistant Attorney
General, State of Texas made the following claim: “Because
Defendant Pettigrew has not answered,”
Counsel for Respondents:
Jason Bramow, Assistant
Attorney General, State of Texas,^P.O. Box 12548, Capitol
Station, Austin, Texas 78711-2548. Office Tel. 512-463-0667
Respondents: LaWanda McMurray, (individually) District
Clerk/Probate Clerk of Upton County
Probate Judge Vicki Bradley, Deceased
Judge Kathleen Stone, (individually)
Probate Judge Bill Eyler, (individually), Upton County
*not an Attorney*

Upton County, Texas
Default - Didn’t answer Summons on the Date Required.
Counsel for Respondents: Denis Dennis, Attorney of Record
Kelly, Morgan, Dennis, Corzine & Hansen P.O. Box 1311
Odessa, TX 79760 (432) 367-7271 Fax: 432/363-9121 Email:
dde nnis@kmdfirm. com
Appellee: David Gibson * Default Never served Plaintiff with
Answer*
Counsel for Respondents: David R. Gibson The Gibson Law
Group, PC 15400 Knoll Trail Drive, Suite 205, Dallas, TX 75248
817-769-4044 Fax:817-764-4313
Appellee: James McDonald
Mailing Address: 421 South Gaston, Crane, Texas 79731
Counsel for Appellee: Unknown in Default never answered
Suit
Respondents:
Albert G. Valadez, Appearing Pro Se, State
Bar No. 20421840, 104 West Callaghan Street, Fort Stockton,
Texas 79735, Office Tel. 432-336-7562
Counsel for Respondents:
Albert G. Valadez, Appearing
Pro Se, State Bar No. 20421840, 104 West Callaghan Street,
Fort Stockton, Texas 79735, Office Tel. 432-336-7562

Respondents:

Katheryn Payne Hall Dutko

Counsel for Respondents:

Albert

Valadez, State Bar No.
!■

20421840, 104 West Callaghan Street,
Fort Stockton, Texas 79735, Office Tel.
432-336-7562
I, Roger Liverman, Petitioner under the penalty of perjury, hereby
certify that atrue and correct copy was sent prepaid first-class mail.
Wday 15thnf April 2021.
Execute
/

y

Roger Liverman
422 Holiday Drive
Ponder, Texas 76259
940-372-3686

!

1

